Spine   Center




                   Office of Inspector General
                 Semiannual Report to Congress
                    October 1, 2010 – March 31, 2011




                 Board of Governors of the Federal Reserve System




Spine
             Message from the Inspector General

        On behalf of the Office of Inspector General (OIG) of the Board of Governors of the
Federal Reserve System (Board), I am pleased to present our Semiannual Report to Congress
highlighting our accomplishments and ongoing work for the six-month period ending
March 31, 2011. The OIG conducted a broad range of audits, evaluations, investigations, and
other reviews across the Board’s mission areas, with a focus on the financial crisis and
implementation of the Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-
Frank Act), which was signed into law in July 2010. For example, our work included reviews
of failed state member banks under Board supervision; a review of the function, status, and risk
management of the six lending facilities that the Board authorized under section 13(3) of the
Federal Reserve Act to support overall market liquidity during the financial crisis; and an
investigation that led to a 13-count indictment of a former state member bank Chief Executive
Officer on charges that include conspiracy, obstruction of a bank examination, money
laundering, and mail and wire fraud. Criminal fines and restitution stemming from other
investigations totaled about $1.6 million during this period. We also completed the annual
audits of the Board’s financial statements and information security program.

        In addition, the Dodd-Frank Act created the Bureau of Consumer Financial Protection
(Bureau) and designated our office as the OIG for the Bureau. In accordance with the Dodd-
Frank Act, the Secretary of the Treasury has designated July 21, 2011, as the date that certain
authorities will transfer from other agencies to the Bureau and that the Bureau will be able to
exercise additional new authorities. During the reporting period, we completed a joint review
with the Department of the Treasury OIG in response to a congressional request related to the
Bureau’s transparency, organizational structure, and regulatory agenda. We continue to
monitor activities under way to stand up the Bureau.

        Going forward, we have updated our strategic plan to reflect the significant changes
resulting from the financial crisis and the Dodd-Frank Act. This strategic plan incorporates
new goals, objectives, and strategies to guide our work for the next several years.

        This will be my last semiannual report since I will be retiring on May 3, 2011. It has
been a great honor to have served as the Inspector General, and to carry out our mission of
independent and balanced oversight. I would like to express my appreciation to Chairman
Bernanke, members of the Board, and Congress for their continued support of the OIG’s work.
I know that the OIG and its employees are well-positioned to carry on their outstanding work
at the Board and, more recently, the Bureau. It has been a privilege to work with such a
talented, dedicated, and professional staff.

                                            Sincerely,




                                      Elizabeth A. Coleman
                                        Inspector General
                                          April 29, 2011
Semiannual Report to Congress
   October 1, 2010 – March 31, 2011
Table of Contents
                                                                                                                     Page
Highlights .................................................................................................................1

Introduction ..............................................................................................................3

Overview of the OIG’s Strategic Plan 2011 – 2015 ................................................5

Organization Chart ...................................................................................................6

Audits and Attestations ............................................................................................7

Multi-disciplinary Work ........................................................................................15

Inspections and Evaluations ...................................................................................17

Information on Nonmaterial Losses to the Deposit Insurance Fund,
as Required by the Dodd-Frank Act ......................................................................26

Bureau of Consumer Financial Protection .............................................................28

Investigations .........................................................................................................30

Legal Services ........................................................................................................36

Communications and Coordination .......................................................................37

Appendixes

   Appendix 1—Audit, Inspection, and Evaluation Reports Issued with
              Questioned Costs during the Reporting Period ..........................41

   Appendix 2—Audit, Inspection, and Evaluation Reports Issued with
              Recommendations that Funds Be Put to Better Use
              during the Reporting Period .......................................................42

   Appendix 3—OIG Reports with Recommendations that Were Open
              during the Reporting Period ........................................................43

   Appendix 4—Audit, Inspection, and Evaluation Reports Issued
              during the Reporting Period ........................................................45

   Appendix 5—OIG Peer Reviews .......................................................................46

   Appendix 6—Cross-References to the IG Act...................................................47

Table of Acronyms and Abbreviations ..................................................................49

Semiannual Report to Congress                                      i                                           April 2011
Highlights
Consistent with our responsibilities under the Inspector General Act of 1978, as
amended (IG Act), and our new responsibilities under the Dodd-Frank Wall Street
Reform and Consumer Protection Act (Dodd-Frank Act), we continued to
promote the integrity, economy, efficiency, and effectiveness of the programs and
operations of the Board of Governors of the Federal Reserve System (Board) and
the Bureau of Consumer Financial Protection (Bureau). The following are
highlights of our work during this semiannual reporting period.

•   Review of Standup of the Bureau. Our Bureau-related activities during the
    period focused on agency “standup” activities and were coordinated with the
    Department of the Treasury (Treasury) Office of Inspector General (OIG).
    We completed a joint review with the Treasury OIG in response to a
    congressional request related to the Bureau’s establishment activities.

•   Failed Bank Reviews. Eight Board-supervised banks failed during the
    reporting period, with total assets of about $4.6 billion and total losses to the
    Deposit Insurance Fund (DIF) estimated at $673.1 million. The Dodd-Frank
    Act raised the materiality threshold for when the OIG is required to conduct a
    material loss review—currently losses to the DIF in excess of $200 million—
    but it also established a requirement to review each bank failure with a non-
    material loss to determine if unusual circumstances exist that warrant a more
    in-depth review. During this reporting period, we completed nine reviews of
    failed banks: one material loss review, seven reviews of failed state member
    banks that fell below the threshold, and one in-depth review of a failed bank
    that exhibited unusual circumstances.

•   Review of Lending Facilities. We issued a comprehensive report on the
    function, status, and risk management of the six lending facilities that the
    Board authorized, pursuant to section 13(3) of the Federal Reserve Act, in
    response to the financial crisis. The facilities were intended to help stabilize
    financial markets and restore overall market liquidity.

•   Financial Statement Audits. We issued the financial statement audits for the
    Board and the Federal Financial Institutions Examination Council (FFIEC),
    both of which received “clean,” unqualified opinions. We contracted with
    Deloitte & Touche LLP, an independent public accounting firm, to conduct
    the audits, and we oversaw their work.

•   Annual Information Security Audit. We completed our annual Federal
    Information Security Management Act of 2002 (FISMA) audit work and
    found that the Board continued to maintain a FISMA-compliant approach to
    its information security program.




Semiannual Report to Congress             1                                 April 2011
•   Investigative Accomplishments. Our investigative staff had several
    successes during the reporting period.

        A former Chief Executive Officer (CEO) of a failed state member bank
        was indicted on 13 counts of conspiracy, obstruction of a bank
        examination, misapplication of bank funds, false bank entries, money
        laundering, and mail and wire fraud.

        One of the subjects of a multi-agency investigation into an “advance fee”
        scheme was sentenced to 18 months in federal prison, 6 months home
        detention, and 1 year of supervised release; and was also ordered to pay
        $650,000 in restitution to victims who were promised low-interest, multi-
        million dollar loans.

        A Board employee who we previously reported had pleaded guilty in
        connection with an investigation into the theft of Board cell phones and
        the associated calling charges was sentenced to three years probation with
        conditions and was ordered to pay $59,457 in restitution. The employee
        was also terminated from Board employment.

        In another multi-agency investigation, a subject pleaded guilty to one
        count of trafficking in counterfeit goods and was sentenced to 18 months
        in prison. The subject previously was indicted for knowingly conducting
        financial transactions affecting interstate and foreign commerce through
        the structured purchase of Postal Money Orders valued at $579,865 using
        proceeds from the unlawful sale of counterfeit merchandise throughout the
        United States.

        In a task force investigation, two subjects were sentenced to six months of
        home detention and ordered to pay restitution of $859,191 for their
        participation in a mortgage fraud scheme.




Semiannual Report to Congress            2                                April 2011
Introduction
Congress established the OIG as an independent oversight authority within the
Board, the government agency component of the broader Federal Reserve System.
In addition, the Dodd-Frank Act established the OIG as the independent oversight
authority for the Bureau. Within this framework, the OIG conducts audits,
investigations, and other reviews related to Board and Bureau programs and
operations. By law, the OIG is not authorized to perform program functions.

Consistent with the IG Act, our office, as the OIG for the Board and the Bureau,

• conducts and supervises independent and objective audits, investigations, and
  other reviews related to Board and Bureau programs and operations;

• promotes economy, efficiency, and effectiveness within the Board and the
  Bureau;

• helps prevent and detect fraud, waste, abuse, and mismanagement in Board
  and Bureau programs and operations;

• reviews existing and proposed legislation and regulations and makes
  recommendations regarding possible improvements to Board and Bureau
  programs and operations; and

• keeps the Board of Governors, the Director of the Bureau, and Congress fully
  and timely informed.

Congress has also mandated additional responsibilities that influence the OIG’s
priorities, to include the following:

Section 38(k) of the Federal Deposit Insurance Act (FDI Act) requires that the
OIG review failed financial institutions supervised by the Board that result in a
material loss to the DIF and produce a report within six months. The Dodd-Frank
Act amended section 38(k) of the FDI Act by raising the materiality threshold, but
also by requiring that the OIG report on the results of any nonmaterial losses to
the DIF that exhibit unusual circumstances that warrant an in-depth review.

In addition, section 211(f) of the Dodd-Frank Act requires that the OIG review the
Board’s supervision of any covered financial company that is placed into
receivership and produce a report that evaluates the effectiveness of the Board’s
supervision, identifies any acts or omissions by the Board that contributed to or
could have prevented the company’s receivership status, and recommends
appropriate administrative or legislative action.

Furthermore, section 989E of the Dodd-Frank Act established the Council of
Inspectors General on Financial Oversight (CIGFO), which is comprised of the
Inspectors General (IGs) of the Board, the Commodity Futures Trading
Commission, the Department of Housing and Urban Development (HUD), the
Treasury, the Federal Deposit Insurance Corporation (FDIC), the Federal Housing

Semiannual Report to Congress           3                               April 2011
Finance Agency (FHFA), the National Credit Union Administration (NCUA), and
the Securities and Exchange Commission (SEC), and the Special IG of the
Troubled Asset Relief Program (TARP). The CIGFO is required to meet at least
quarterly to share information and discuss the ongoing work of each IG, with a
focus on concerns that may apply to the broader financial sector and ways to
improve financial oversight. Additionally, the CIGFO is required to issue a report
annually that highlights the IGs’ concerns and recommendations, as well as issues
that may apply to the broader financial sector.

With respect to information technology (IT), FISMA established a legislative
mandate for ensuring the effectiveness of information security controls over
resources that support federal operations and assets. Consistent with FISMA’s
requirements, we perform an annual independent evaluation of the Board’s
information security program and practices, including the effectiveness of security
controls and techniques for selected information systems. We also will conduct
an annual independent evaluation of the Bureau’s information security program
and practices once the Bureau is fully operational.

The USA PATRIOT Act of 2001, Public Law No. 107-56, grants the Board
certain federal law enforcement authorities. Our office serves as the external
oversight function for the Board’s law enforcement program.

Section 11B of the Federal Reserve Act mandates annual independent audits of
the financial statements of each Federal Reserve Bank and of the Board. We
oversee the annual financial statement audits of the Board, as well as the FFIEC.
The FFIEC is a formal interagency body empowered to prescribe uniform
principles, standards, and report forms for the federal examination of financial
institutions by the Board, the FDIC, the NCUA, the Office of the Comptroller of
the Currency (OCC), and the Office of Thrift Supervision (OTS) and to make
recommendations to promote uniformity in the supervision of financial
institutions.




Semiannual Report to Congress               4                             April 2011
Overview of the OIG’s Strategic Plan 2011 – 2015

The following chart represents the structure of the OIG’s Strategic Plan, which we
recently updated to incorporate, among other things, new requirements under the
Dodd-Frank Act, including our responsibilities as the OIG for the Bureau.




Semiannual Report to Congress               5                             April 2011
                      Organization Chart
                                       OFFICE OF INSPECTOR GENERAL
                                                                    (March 2011)




                                                                     INSPECTOR
                                                                      GENERAL
                                                                 Elizabeth A. Coleman



                                                                                          Associate IG
                                                                                          Legal Services
                                                                                        Jacqueline M. Becker




               Associate IG                           Associate IG                             Associate IG
                                                                                                                                   Associate IG
               Management &                             Audits &                               Inspections &
                                                                                                                                   Investigations
              Quality Assurance                       Attestations                              Evaluations
                                                                                                                              Harvey Witherspoon
               Elise M. Ennis                       Andrew Patchan, Jr.                      Anthony J. Castaldo




                                                                                      OIG MANAGER
 OIG MANAGER           OIG MANAGER      OIG MANAGER          OIG MANAGER                                       OIG MANAGER                              SENIOR
                                                                                       Inspections &
Quality Assurance        Information       Audits &             Audits &                                        Inspections &                       INVESTIGATIVE
                                                                                        Evaluations
Kimberly A. Whitten        Systems        Attestations         Attestations                                      Evaluations                           ADVISOR
                                                                                        Michael P.
                       Sue S. Bowman     Cynthia D. Gray      Peter J. Sheridan                                Timothy P. Rogers                    Donna M. Harrison
                                                                                        VanHuysen




                                                                     OIG Staff




                                                                      OIG Staffing

                                        Auditors (including Information Technology)                            53
                                        Investigators                                                          15
                                        Legal                                                                   6
                                        Administrative and Hotline                                              6
                                        Information Systems Analysts                                            5
                                            Total Authorized Positions                                         85




                      Semiannual Report to Congress                               6                                                  April 2011
Audits and Attestations
The Audits and Attestations program assesses aspects of the economy, efficiency,
and effectiveness of Board and Bureau programs and operations. For example,
Audits and Attestations conducts audits of (1) the Board’s financial statements
and financial performance reports; (2) the effectiveness of processes and internal
controls over agency programs and operations; (3) the adequacy of controls and
security measures governing agency financial and management information
systems and the safeguarding of assets and sensitive information; and
(4) compliance with applicable laws and regulations related to agency financial,
administrative, and program operations. As mandated by the IG Act, OIG audits
and attestations are performed in accordance with the Government Auditing
Standards established by the Comptroller General. The information below
summarizes OIG work completed during the reporting period and ongoing work
that will continue into the next semiannual reporting period.


COMPLETED AUDIT WORK AT THE BOARD

Review of the Federal Reserve’s Section 13(3) Lending Facilities to Support
Overall Market Liquidity

During this reporting period, we issued our final report on The Federal Reserve’s
Section 13(3) Lending Facilities to Support Overall Market Liquidity: Function,
Status, and Risk Management. In response to the financial crisis, the Federal
Reserve looked beyond its traditional monetary policy tools to restore economic
stability, and initiated a number of lending facilities and special programs.
Between March and November 2008, the Board, citing “unusual and exigent
circumstances,” exercised its authority under section 13(3) of the Federal Reserve
Act to authorize the creation of the following six lending facilities: the Term
Securities Lending Facility (TSLF) (including the TSLF Options Program), the
Primary Dealer Credit Facility (PDCF), the Asset-Backed Commercial Paper
Money Market Mutual Fund Liquidity Facility (AMLF), the Commercial Paper
Funding Facility (CPFF), the Money Market Investor Funding Facility (MMIFF),
and the Term Asset-Backed Securities Loan Facility (TALF). The Federal
Reserve Bank of New York (FRBNY) was authorized to implement and operate
the TSLF, PDCF, CPFF, MMIFF, and TALF, while the Federal Reserve Bank of
Boston (FRB Boston) was authorized to implement and operate the AMLF.

The objectives of our review were to (1) determine the overall function and status
of each facility, including how it operated, the financial markets it was intended to
support, the financial utilization of the facility, the total amount of loans extended,
and the current outstanding balances; and (2) identify risks in each facility for the
Board’s review in exercising its monetary policy function and in its general
supervision and oversight of the Federal Reserve Banks.

Through these facilities, FRBNY and FRB Boston provided loans to depository
institutions, bank holding companies, commercial paper issuers, and primary

Semiannual Report to Congress                 7                              April 2011
dealers. The lending facilities expanded the Federal Reserve’s traditional role as
the “lender of last resort” beyond depository institutions, to corporations and other
financial institutions. The Federal Reserve determined that such lending was
necessary to avoid systemic financial failure within the U.S. economy. The six
lending facilities shared the common objectives of reducing risks to financial
stability and strengthening the effectiveness of monetary policy by targeting
instability in the credit markets and increasing liquidity to corporations and
financial institutions.

To respond to severely stressed market conditions and restore economic stability,
the six lending facilities were created separately and quickly without the
opportunity for extensive planning. In addition, the Federal Reserve designed the
lending facilities to generally encourage broad participation by many borrowers.
Thus, implementation of the lending facilities involved credit and operational
risks, which varied by facility.

By providing for a broad scope of eligible borrowers and types of loan collateral,
the lending facilities exposed the Federal Reserve to credit risks that included
broad eligibility for borrowers, the non-recourse nature of some of the lending
facilities’ loans, and the potential aggregate exposure to certain types of collateral
and various types of borrowers. To mitigate these risks, the Federal Reserve
implemented a number of credit risk management controls that varied by facility,
with a focus on ensuring adequate collateral. The Federal Reserve incorporated,
in most cases, a “haircut” on the collateral, imposed above-normal market interest
rates and usage fees, and contracted with specialized vendors for critical
functions. 1

The short lead time available for planning, coupled with the complex terms and
conditions of the lending facilities, created operational risks associated with
developing and maintaining policies and procedures; having sufficient,
experienced staff to run the facilities; and managing vendor contracts and agent
agreements. To mitigate these risks, dedicated teams were established to develop
and maintain policies and procedures, operate the programs, and implement
controls. To mitigate risks concerning staffing shortages, FRBNY borrowed staff
from other sections, hired additional employees, and obtained operational
assistance from other Federal Reserve Banks and contractors. To mitigate vendor
and agent risks, FRBNY performed on-site reviews of vendors’ and agents’
compliance with contract and agreement provisions and established contractual
conflict of interest provisions.

Overall, general indicators of market stress suggested that the lending facilities
helped to stabilize financial markets, and as of the end of our fieldwork on June
30, 2010, the Board reported that none of the lending facilities had experienced


    1. A haircut is the amount by which a maximum authorized loan amount is below the value of
the assets used as collateral for the loan.

Semiannual Report to Congress                     8                                 April 2011
any financial losses. On November 5, 2008, the combined usage of the lending
facilities peaked at $600 billion. Each of the six lending facilities has expired, as
market conditions have improved. As of June 30, 2010, only the TALF had
outstanding loans, which totaled approximately $42.5 billion and were scheduled
to mature no later than March 2015. Also as of June 30, 2010, the lending
facilities had generated approximately $9.0 billion in interest earnings and fees.
Our report did not include any recommendations.

In consolidated comments on a draft of our report, the Board’s Division of
Reserve Bank Operations and Payment Systems, Division of Monetary Affairs,
and Legal Division, indicated that our report provided a clear summary of the
purpose, implementation, operation, expiration, and key risks associated with
each of the six lending facilities.


Audit of the Board’s Financial Statements for the Year Ending December 31,
2010, and Audit of the Federal Financial Institutions Examination Council’s
Financial Statements for the Year Ending December 31, 2010

We contract for an independent public accounting firm to audit the financial
statements of the Board and the FFIEC annually. (The Board performs the
accounting function for the FFIEC.) The accounting firm, currently Deloitte &
Touche LLP, performs the audits to obtain reasonable assurance that the financial
statements are free of material misstatement. The OIG oversees the activities of
the contractor to ensure compliance with generally accepted government auditing
standards and Public Company Accounting Oversight Board (PCAOB) auditing
standards related to internal controls over financial reporting. The audits include
examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. The audits also include an assessment of the accounting
principles used and significant estimates made by management, as well as an
evaluation of the overall financial statement presentation.

In the auditors’ opinion, the Board’s and the FFIEC’s financial statements
presented fairly, in all material respects, the financial position, results of
operations, and cash flows of each entity as of December 31, 2010, in conformity
with accounting principles generally accepted in the United States. To determine
the auditing procedures necessary to express an opinion on the financial
statements, the auditors reviewed the Board’s and the FFIEC’s internal controls
over financial reporting. For the second year, the auditors expressed an opinion
on the effectiveness of the Board’s internal controls over financial reporting based
on the PCAOB standards and the Government Auditing Standards. In the
auditors’ opinion, the Board maintained, in all material respects, effective internal
control over financial reporting as of December 31, 2010. With regard to the
FFIEC’s internal controls over financial reporting, the auditors noted no matters
that they considered material weaknesses in accordance with the Government
Auditing Standards.


Semiannual Report to Congress                 9                             April 2011
As part of obtaining reasonable assurance that the financial statements are free of
material misstatement, the auditors also performed tests of the Board’s and the
FFIEC’s compliance with certain laws and regulations, since noncompliance with
these provisions could have a direct and material effect on the determination of
the financial statement amounts. The results of the auditors’ tests disclosed no
instances of noncompliance that would be required to be reported under the
Government Auditing Standards.


Audit of the Board’s Transportation Subsidy Program

During this reporting period, we completed an audit of the Board’s Transportation
Subsidy Program (TSP). The Board operates its TSP in support of federal
government initiatives to conserve energy, reduce traffic congestion, and improve
air quality by encouraging federal employees to commute to work using public
transportation. As of December 31, 2010, approximately 1,100 Board employees
participated in the TSP, and 2010 Board expenditures for providing TSP benefits
totaled about $1.5 million. We began this audit in response to reports of abuse
and fraud in the federal transit benefits program at other government agencies.
Our objective was to determine the extent to which the Board’s TSP is properly
controlled and administered. More specifically, we assessed the extent to which
the Board’s program controls (1) ensure compliance with applicable laws and
regulations and management’s authorization, and (2) prevent unauthorized or
fraudulent activities.

Overall, we concluded that the Board’s TSP was reasonably controlled and
administered to help ensure compliance with applicable laws and regulations and
management’s authorization, and to help prevent unauthorized or fraudulent
activities. Our audit did not identify significant deficiencies; however, we did
identify instances of noncompliance with policies and procedures and
opportunities to strengthen controls intended to ensure participants’ compliance
with TSP requirements. Specifically, we identified weaknesses involving TSP
participants (1) continuing to receive benefits after separating from the Board, (2)
not providing the Board office responsible for managing the TSP with up-to-date
address and commuting cost information, and (3) having a parking permit while
also receiving TSP benefits.

Our report contained three recommendations designed to address these matters.
In commenting on a draft of our report, the Acting Director of the Management
Division agreed with our assessment that opportunities exist to strengthen controls
intended to ensure participants’ compliance with TSP requirements. He
concurred with two of our three recommendations and with the intent of the third
recommendation, and he provided improvement actions planned or underway.
We will follow up on the implementation of each recommendation as part of our
future audit activities.


Semiannual Report to Congress               10                             April 2011
Audit of the Board’s Information Security Program

During this reporting period, we completed our annual audit of the Board’s
information security program and practices. The audit was performed pursuant to
FISMA, which requires that each agency IG conduct an annual independent
evaluation of the agency’s information security program and practices. Based on
FISMA’s requirements, our specific audit objectives were to evaluate (1) the
Board’s compliance with FISMA and related information security policies,
procedures, standards, and guidelines; and (2) the effectiveness of security
controls and techniques for a subset of the Board’s information systems. In
accordance with the Office of Management and Budget’s (OMB’s) revised
requirements, our FISMA review included an analysis of the Board’s information
security-related processes in the following areas: certification and accreditation,
continuous monitoring, plans of action and milestones, account and identity
management, remote access, security configuration management, security
training, contractor oversight, contingency planning, and incident response and
reporting. We also followed up on the status of corrective actions in response to
five open recommendations from our prior FISMA reports and nine open
recommendations from two security control reviews.

Overall, we found that the Board’s Chief Information Officer (CIO) continued to
maintain a FISMA-compliant approach to the Board’s information security
program that is generally consistent with requirements established by the National
Institute of Standards and Technology (NIST) and OMB. The Information
Security Officer (ISO) continued to issue and update information security policies
and guidelines, and is piloting a Board-wide IT risk assessment framework to
capture technology, operational, and strategic risks for IT resources. As NIST
and OMB develop new guidance and update existing standards and publications
to transform the traditional certification and accreditation (C&A) process into a
new Risk Management Framework, opportunities exist for the CIO to continue to
mature the Board’s information security processes through further assessment of
risks and controls under an organization-wide risk management strategy, with a
focus on more continuous monitoring and automated methods.

Our report contained three recommendations. To transform the Board’s C&A
process into the Risk Management Framework and implement new NIST
requirements for assessing security controls, our first recommendation was that
the CIO continue to develop and implement a Board-wide IT risk management
strategy as required by NIST Special Publication (SP) 800-53, Revision 3,
Recommended Security Controls for Federal Information Systems and
Organizations, Program Management family of controls. Our second
recommendation was that, as additional NIST and OMB guidance is issued and
becomes effective, the CIO develop a continuous monitoring strategy and
implement a continuous monitoring program as required by SP 800-53, Security
Assessment and Authorization family of controls. Finally, we recommended that
the CIO identify all IT services provided by organizations other than Board


Semiannual Report to Congress              11                             April 2011
personnel, and determine if they need to be accredited as a third-party contractor
system or as part of an existing General Support System (GSS) or major
application.

In addition, our report included matters for management’s consideration based on
our analysis of the Board’s security-related processes. Although not specifically
required by NIST or OMB requirements, the following actions could help to
strengthen the Board’s information security posture: (1) under the Board’s C&A
program, provide system owners additional information on security assessments
of the GSS components, include additional relevant information in system
security plans, and implement risk-based sampling as part of the security control
assessment testing; and (2) under the Board’s configuration management
program, separately accredit the externally facing components of the IT GSS and
major applications, and clarify guidance to assist system owners in managing
application level security settings.

In following up on the status of corrective actions in response to open
recommendations from our prior FISMA reports, we determined that the Board’s
corrective actions were sufficient to close two of the four recommendations in our
2009 FISMA report. On the other two open recommendations, which related to
improving the plans of action and milestones and information security training
programs, the ISO has made progress, but corrective action is still under way.
Our 2008 FISMA report included a recommendation to ensure that risk
assessments adequately identify, evaluate, and document the risks to an
information system based on potential threats, vulnerabilities, and controls. We
are keeping this recommendation open as we continue to monitor the CIO’s and
the ISO’s actions in overseeing the planned enhancements to the risk assessment
process. In following up on the Board’s actions in response to the nine open
recommendations from our prior security control reviews, we determined that
sufficient actions had been taken to close all those recommendations. We will
continue to follow up on actions taken regarding our FISMA and security control
review report recommendations as part of future audit and evaluation work related
to information security.

The Director of the Board’s IT division, in her capacity as the CIO for FISMA,
generally agreed with the three recommendations in our current report and stated
that she intends to take immediate action to address each of the recommendations.
This includes updating the Board’s program documentation to more accurately
reflect the risk management and continuous monitoring programs. In addition,
she will be reviewing the system inventory with each division and office to
validate that all contractor services are correctly reflected in the inventory. The
Director also plans to leverage the results from the continuous monitoring
program to offset compliance testing requirements during 2011.




Semiannual Report to Congress              12                             April 2011
Security Control Review of the Internet Electronic Submission System

We completed a security control review of the Internet Electronic Submission
system (IESub), which was developed and is managed by the FRBNY Statistics
Function. IESub is a major third-party application on the Board’s FISMA
application inventory under the Division of Monetary Affairs. It provides an
interface to the respondents for regulatory and statistical reports to submit their
data via the internet. Our objective was to evaluate the adequacy of selected
infrastructure controls for IESub that were provided by the FRBNY Technical
Services Group. To accomplish this objective, we used a control assessment
review program based on the security controls defined in SP 800-53. The security
controls are divided into “families” (such as access controls, risk assessment, and
personnel security) and are categorized as system-specific or common (that is,
applicable across all systems within a given infrastructure). The scope of our
audit included 4 of the 17 control families.

Our audit identified opportunities to strengthen information security controls in
the control families that we evaluated. For those control families that were
deficient or where improvements could be made, we highlighted recommended
actions. The Directors of the Divisions of Monetary Affairs and IT stated that the
divisions would work together, along with the FRBNY Technical Services Group
when necessary, to address the recommendations in our report and identified that
corrective actions have either been implemented or are planned. We will follow
up on the implementation of these recommendations as part of our future FISMA-
related audit activities.


ONGOING WORK AT THE BOARD

Audit of the Board’s Process to Manage Dodd-Frank Act Implementation

During this reporting period, we began an audit of the Board’s process to manage
its implementation of the Dodd-Frank Act, which was enacted in July 2010. The
Dodd-Frank Act established numerous requirements for the Board and other
financial regulatory agencies and created the Financial Stability Oversight
Council (FSOC) to enhance oversight across the financial sector. In addition to
meeting a number of new responsibilities under the act, the Board must draft a
number of new regulations, review existing regulations and policies, and conduct
various studies. For many of these initiatives, the act specifies deadlines for final
actions over a 30-month period following its enactment. In addition, as a member
of the CIGFO, the Dodd-Frank Act requires that we provide input to the CIGFO’s
annual report to Congress and the FSOC regarding concerns and
recommendations that may apply to the broader financial sector.

Our audit objectives are to assess (1) the efficiency and effectiveness of the
Board’s processes for identifying, tracking, and overall managing its


Semiannual Report to Congress               13                              April 2011
responsibilities under the act; and (2) the Board’s progress in implementing key
requirements of the act. We plan to report on this audit in the next reporting
period.


Audit of the Board’s Progress in Developing Enhanced Prudential Standards
and Monitoring of Potential Systemic Risks

During this reporting period, we also began an audit of the Board’s Division of
Banking Supervision and Regulation’s (BS&R’s) implementation of certain
provisions of the Dodd-Frank Act. The Dodd-Frank Act gave the Board
important new authorities to safeguard financial stability, including the
responsibility for developing enhanced prudential standards for supervising large
bank holding companies with total consolidated assets of $50 billion or more and
systemically important non-bank financial companies identified by the FSOC.
The objectives of this audit are to assess BS&R’s approaches to (1) developing
enhanced prudential standards for large bank holding companies, including
standards that would apply to any non-bank financial company that the FSOC
identifies as systemically important; and (2) monitoring potential systemic risks,
including emerging mortgage foreclosure-related issues.


Security Control Review of the Board’s Public Website

During this period, we completed the fieldwork and began drafting our report for
a security control review of the Board’s public website (Pubweb). Pubweb is
listed as a major application on the Board’s FISMA inventory for the Office of
Board Members. Pubweb provides information about the mission and work of the
Board, including materials required to be made public by the Federal Reserve Act
and other federal legislation. Pubweb also provides information to the public
related to the functions of the Federal Reserve System, including financial
information such as monetary policy reports, testimony and speeches, economic
research and data, reporting forms, and consumer information. Our review
objectives are to evaluate the effectiveness of selected security controls and
techniques for protecting Pubweb from unauthorized access, modification, or
destruction; and to ensure compliance with the Board’s information security
program. We expect to complete this project and issue our final report in the next
reporting period.


Security Control Review of the Visitor Registration System

During this period, we completed the fieldwork and began drafting our report for
a security control review of the Board’s Visitor Registration System. The Visitor
Registration System is listed as a major application on the Board’s FISMA
inventory. The Visitor Registration System allows Board employees to register


Semiannual Report to Congress              14                             April 2011
visitors to the Board; provides administrative users the ability to manage
registered visitors, run reports, and manage access roles; and provides law
enforcement officer users the ability to sign visitors in and out, print badges, and
manage registered visitors. Our review objectives are to evaluate the
effectiveness of selected security controls and techniques for protecting the
Visitor Registration System from unauthorized access, modification, or
destruction; and to ensure compliance with the Board’s information security
program. We expect to complete this project and issue our final report in the next
reporting period.


Security Control Review of the National Remote Access Services

During this period, we completed the fieldwork and began drafting our report for
a security control review of the Federal Reserve System’s National Remote
Access Services (NRAS). The Board and the 12 Federal Reserve Banks use
NRAS for remotely accessing Board and Federal Reserve Bank information
systems. Our review objective is to evaluate the effectiveness of selected security
controls and techniques to ensure the Board maintains a remote access program
that complies with FISMA requirements. We expect to complete this project and
issue our final report in the next reporting period.


Security Control Review of FISMA Assets Maintained by the Federal Reserve
Bank of Richmond

Pursuant to the requirements of FISMA, we began a security control review of
two Lotus Notes applications listed on the Board’s FISMA inventory and
maintained by the Federal Reserve Bank of Richmond (FRB Richmond). The
two database applications are used by FRB Richmond to support bank
examinations. Our review objectives are to evaluate the effectiveness of selected
security controls and techniques for protecting the two Lotus Notes applications
from unauthorized access, modification, or destruction; and to ensure compliance
with the Board’s information security program. We plan to complete this review
and issue the final report in the next reporting period.


Multi-disciplinary Work at the Board
Inquiry into Allegations of Undue Influence

During this reporting period, we continued our inquiry into allegations of
inappropriate political influence on Federal Reserve System officials, resulting in
hidden transfers of resources to facilitate crimes during the Watergate scandal in
the 1970s and to Iraq for weapon purchases during the 1980s. These allegations
were raised by a member of Congress during the February 2010 Humphrey-

Semiannual Report to Congress               15                             April 2011
Hawkins hearing before the House Committee on Financial Services. We
initiated our inquiry in response to a request to the Board for an investigation of
the allegations from the then Chairman of the House Committee on Financial
Services, which the Board referred to our office. We expect to complete this
project and issue our final report in the next reporting period.




Semiannual Report to Congress               16                              April 2011
Inspections and Evaluations
The Inspections and Evaluations program encompasses OIG inspections, program
evaluations, enterprise risk management activities, process design and life-cycle
evaluations, and legislatively-mandated reviews of failed financial institutions
that the Board supervises. Inspections are generally narrowly focused on a
particular issue or topic and provide time-critical analysis that cuts across
functions and organizations. In contrast, evaluations are generally focused on a
specific program or function and make extensive use of statistical and quantitative
analytical techniques. Evaluations can also encompass other preventive activities,
such as reviews of system development life-cycle projects and participation on
task forces and workgroups. OIG inspections and evaluations are performed
according to the Quality Standards for Inspection and Evaluation issued by the
Council of the Inspectors General on Integrity and Efficiency (CIGIE).


COMPLETED INSPECTION AND EVALUATION WORK AT THE
BOARD

Material Loss Reviews

                                       Section 38(k) of the FDI Act requires that
                                       the IG of the appropriate federal banking
                                       agency complete a review of the agency’s
                                       supervision of a failed institution and issue
                                       a report within six months of notification
                                       from the FDIC IG when the projected loss
                                       to the DIF is material. Under section
                                       38(k) of the FDI Act, as amended, a
                                       material loss to the DIF is defined as an
                                       estimated loss in excess of $200 million.
Pursuant to the Dodd-Frank Act, this threshold applies if the loss occurs between
January 1, 2010, and December 31, 2011.

The material loss review provisions of section 38(k) require that the IG

•   review the institution’s supervision, including the agency’s implementation of
    prompt corrective action (PCA);

•   ascertain why the institution’s problems resulted in a material loss to the DIF;
    and

•   make recommendations for preventing any such loss in the future.

The Dodd-Frank Act also establishes specific requirements for bank failures that
result in losses below the materiality threshold. In these situations, the IG must
review the failure to determine, among other things, whether the loss exhibits
unusual circumstances that warrant an in-depth review. In such cases, the IG


Semiannual Report to Congress                17                            April 2011
must prepare a report in a manner consistent with the requirements of a material
loss review. Pursuant to the Dodd-Frank Act, the IG must semiannually report
the dates when each such review and report will be completed. If it is determined
that a loss did not involve unusual circumstances, the IG is required to provide an
explanation of its determination in the above mentioned semiannual report. The
OIG has included its report on nonmaterial loss bank failures in this Semiannual
Report to Congress (see pages 26 and 27).

As shown in the table below, during this reporting period we issued two reports
on failed state member banks: one where the loss to the DIF exceeded the
materiality threshold, and the other where the loss did not meet the materiality
threshold, but presented unusual circumstances. 2 These two banks had total
assets of approximately $3.87 billion and total losses estimated at $221.5 million,
or approximately 5.7 percent of total assets.

Failed Bank Reviews Completed during the Reporting Period
                                                                                  DIF
                                                Federal                         Projected                     FDIC IG
                                                Reserve         Asset size        Loss          Closure      Notification
  State Member Bank           Location           Bank         (in millions)   (in millions)      Date          Datea

 Independent               Springfield, IL      Chicago         $ 773.7         $ 20.8        12/18/2009          N/A
   Bankers’ Bankb

 Midwest Bank and             Elmwood           Chicago         $3,100.0         $200.7       05/04/2010      06/08/2010
  Trust Company                Park, IL
  a. Date that our office received notification from the FDIC IG that the projected loss to the DIF would be material.
  b. Independent Bankers’ Bank did not meet the materiality threshold; however, we determined that the bank’s failure
     presented unusual circumstances that warranted an in-depth review.



Review of the Failure of Independent Bankers’ Bank

Independent Bankers’ Bank (IBB) opened in 1986 as a state-chartered member
bank of the Federal Reserve System. IBB was supervised by the Federal Reserve
Bank of Chicago (FRB Chicago), under delegated authority from the Federal
Reserve Board, and by the Illinois Department of Financial and Professional
Regulation (State). On December 18, 2009, the State closed IBB, under its
emergency authority, due to concerns about IBB’s ability to continue processing
payments on behalf of respondent banks and appointed the FDIC as receiver.
According to the FDIC IG, IBB’s failure will result in an estimated $20.8 million
loss to the DIF, or 2.7 percent of the bank’s $773.7 million in total assets. While


    2. A total of 38 state member banks failed from December 2008 through March 2011. Of
those, 20 failed bank reviews have been completed by the OIG (18 material loss reviews and
2 in-depth, unusual circumstances reviews); 1 material loss review is ongoing; 2 in-depth, unusual
circumstances failed bank reviews are in progress; and 15 failed state member banks did not meet
the materiality or unusual circumstances review thresholds established in the Dodd-Frank Act.
The total estimated loss to the DIF for the 38 banks is approximately $5.2 billion.

Semiannual Report to Congress                                  18                                           April 2011
the loss is not material, we conducted an in-depth review after determining that
IBB’s failure presented an unusual circumstance because it was a bankers’ bank
and was unable to continue processing payments on behalf of its respondent
banks.

IBB failed because its Board of Directors and management did not effectively
control the risks associated with the bank’s business strategy. IBB kept service
fees low to attract respondent banks and relied on interest income from its
investment portfolio to supplement income. The bank acquired collateralized
debt obligations (CDOs), primarily backed by trust preferred securities and
private label mortgage-backed securities, to obtain higher yields, and developed a
concentrated, high-risk investment portfolio. In addition, the bank depended on
non-core funding sources to support asset growth and provide liquidity. A sharp
decline in economic conditions, coupled with increasing turmoil in the CDO
market, led to rapid devaluation in IBB’s investment portfolio and forced the bank
to recognize significant losses. These losses eliminated earnings, depleted capital,
and severely strained liquidity.

With respect to supervision, FRB Chicago complied with the examination
frequency guidelines for the timeframe we reviewed, 2004 through 2009, and
conducted regular off-site monitoring. Our analysis of FRB Chicago’s
supervision of IBB revealed that FRB Chicago had multiple opportunities to take
earlier and more forceful supervisory action. Earlier action may have been
warranted to address (1) IBB’s risky business strategy, (2) the Board of Directors’
insufficient management of the bank’s investment portfolio risk, (3) early
indications of economic decline, and (4) IBB’s excessive reliance on non-core
funding sources. While we believe that FRB Chicago had opportunities for
earlier and more forceful supervisory action, it is not possible for us to predict the
effectiveness or impact of any corrective measures that might have been taken by
the bank. Therefore, we cannot evaluate the degree to which an earlier or
alternative supervisory response would have affected IBB’s financial deterioration
or the ultimate cost to the DIF.

We believe that IBB’s failure highlighted several lessons learned that can be
applied when supervising banks with similar characteristics. In our opinion,
examiners should obtain a comprehensive understanding of the risks embedded in
investment portfolios and any external factors that may heighten these risks.
Specifically, examiners should gain thorough knowledge of investment product
characteristics and risk attributes and be cognizant of market conditions or
significant events that may adversely affect the value of an institution’s
investments. We also believe that IBB’s failure underscored the unique nature of
a bankers’ bank and the critical functions that a bankers’ bank provides to its
respondent banks. Therefore, examiners should (1) closely monitor the condition
of a bankers’ bank to facilitate immediate response to adverse changes; and
(2) evaluate risk exposure stemming from concentrations in loans, investments,
and funding sources.


Semiannual Report to Congress                19                             April 2011
Material Loss Review of Midwest Bank and Trust Company

Midwest Bank and Trust Company (Midwest) was supervised by FRB Chicago,
under delegated authority from the Federal Reserve Board, and by the Illinois
Department of Financial and Professional Regulation (State). The State closed
Midwest in May 2010, and the FDIC was named receiver. On June 8, 2010, the
FDIC IG notified us that Midwest’s failure would result in an estimated loss to the
DIF of $200.7 million, or 6.5 percent of the bank’s $3.1 billion in total assets.

Midwest failed because of the convergence of various factors. The Board of
Directors and management pursued an aggressive growth strategy in 2002 and
2003, without establishing credit risk management controls commensurate with
the bank’s increasing size and risk profile. These weaknesses contributed to the
bank developing commercial real estate (CRE) and construction, land, and land
development (CLD) loan concentrations. During this time period, examiners also
raised concerns about management’s effectiveness and capabilities. These
deficiencies resulted in a formal enforcement action in March 2004 that, among
other things, required Midwest to enhance its credit risk management and hire a
consultant to conduct an independent assessment of management’s “functions and
performance,” including its expertise and qualifications. In response to the
independent assessment, the bank overhauled its management team in 2004 and
2005. New management pursued “double-digit” loan growth while attempting to
materially reduce loan concentrations, raise capital, and diversify the bank’s
funding sources. For the most part, management achieved only its growth
objectives.

In 2007, Midwest developed an investment portfolio risk by increasing its
preferred securities holdings in Fannie Mae and Freddie Mac, two government
sponsored enterprises (GSEs). The value of these securities declined
precipitously following the onset of the financial crisis in the fall of 2007, and in
the first quarter of 2008, the bank took a $17.6 million write-down. The GSEs
were placed into conservatorship in September 2008, and Midwest’s management
subsequently wrote off the remaining $67 million value of these securities.
During this time frame, the bank also experienced significant asset quality
deterioration in its CRE and CLD loan portfolios. In December 2008, the bank
received $84.8 million from the Treasury’s TARP, but management failed to raise
additional private capital. In 2008 and 2009, Midwest experienced significant
losses, and Midwest’s holding company injected $87 million in additional capital
to preserve the bank’s well capitalized status. These capital injections depleted
the holding company’s financial reserves and prevented it from further
supplementing the bank’s capital. By 2010, Midwest became fully exposed to the
loan losses associated with its CRE and CLD asset quality deterioration, which
rapidly depleted its capital. The State closed Midwest and appointed the FDIC as
receiver on May 14, 2010.



Semiannual Report to Congress               20                              April 2011
With respect to supervision, FRB Chicago complied with examination frequency
guidelines for the timeframe we reviewed and conducted regular off-site
monitoring. Our analysis of FRB Chicago’s supervision indicated that examiners
identified key weaknesses—such as the bank’s CRE and CLD concentrations,
reliance on non-core funding, and reliance on the holding company’s capital
support—that contributed to the bank’s failure. Yet, examiners did not act on
multiple subsequent opportunities to take more forceful supervisory action that
might have prompted management to resolve these weaknesses. For example, we
believe the findings in a 2004 full scope examination did not warrant the upgrade
that was made to Midwest’s CAMELS composite rating because the bank had
been placed under a formal enforcement action only two weeks prior to the start
of the examination. 3 In addition, between 2005 and 2007, FRB Chicago did not
hold bank management accountable for failing to diversify the bank’s loan
portfolio and funding sources. We also noted that a 2008 full scope examination
warranted additional CAMELS component rating downgrades and a CAMELS
composite downgrade. However, it was not possible to determine whether
alternative supervisory actions would have affected Midwest’s subsequent
decline.

We believe that Midwest’s failure offered lessons learned that can be applied to
supervising banks with similar characteristics and circumstances. This failure
demonstrated (1) the importance of examiners holding management accountable
for failing to address fundamental and persistent weaknesses, (2) the risks
associated with an aggressive growth strategy that relies heavily on non-core
funding and holding company capital support, and (3) the importance of
examiners issuing CAMELS composite and component ratings consistent with the
narrative comments included in examination reports.


Review of the Joint Implementation Plan for the Transfer of OTS Functions

Title III of the Dodd-Frank Act established provisions for the transfer of authority
from the OTS to the OCC, the FDIC, and the Board within one year after the
July 21, 2010, date of enactment. Under Title III, the Board receives the
functions and rulemaking authority for consolidated supervision of savings and
loan holding companies and their non-depository subsidiaries.

The Dodd-Frank Act required that, within 180 days after its enactment, the OTS,
the OCC, the FDIC, and the Board jointly submit a plan (Joint Implementation
Plan) to Congress and the IGs of the Treasury, the FDIC, and the Board that
detailed the steps each agency would take to implement the Title III provisions.
The Joint Implementation Plan was submitted to Congress and the IGs on

   3. The CAMELS acronym represents six components: Capital adequacy, Asset quality,
Management practices, Earnings performance, Liquidity position, and Sensitivity to market risk.
Each component and overall composite score is assigned a rating of 1 through 5, with 1 having the
least regulatory concern.

Semiannual Report to Congress                      21                                 April 2011
January 25, 2011. The Dodd-Frank Act required that the IGs conduct a review to
determine whether the implementation plan conformed to the Title III provisions
and issue a report within 60 days after the submission of the Joint Implementation
Plan.

On March 28, 2011, 60 days after the Joint Implementation Plan was submitted,
the IGs jointly issued a report concluding that the actions described in the Joint
Implementation Plan generally conformed to the provisions of Title III. The
report stated that the Board’s component of the implementation plan sufficiently
addressed the applicable Title III requirements. The report noted, however, that
the Joint Implementation Plan did not address the prohibition against involuntary
separation or relocation of transferred OTS employees for 30 months (except
under certain circumstances) and, therefore, recommended that the Joint
Implementation Plan be amended to address this requirement. The FDIC and the
OCC are the agencies receiving OTS employees. In written comments on the
IGs’ report, the FDIC and the OCC, along with the OTS, concurred with the
recommendation. The Board stated in its written comments that it agreed with the
conclusion that the Board’s part of the plan complied with Title III.


FOLLOW-UP ACTIVITIES AT THE BOARD

Follow-Up on Material Loss Review Recommendations

During the reporting period, we completed a follow-up review of the actions
taken on the recommendations in our material loss review reports for First
Georgia Community Bank, County Bank, Community Bank of West Georgia, and
CapitalSouth Bank. Our follow-up work included reviewing documentation that
supported actions taken on the recommendations and communicating with BS&R
staff. In all, there were four recommendations, one in each report. We found that
BS&R (1) published guidance that reiterated the need for Reserve Banks to follow
existing guidelines when there is a disagreement with a state supervisory agency
about supervisory ratings; (2) reminded the Reserve Banks to provide timely
brokered deposit restriction notifications; (3) updated the Commercial Bank
Examination Manual to address the de novo examination frequency requirements
and cross-reference specific guidance; and (4) published guidance to clarify the
circumstances under which the “eligible bank test” should be applied to
evaluating merger applications. These actions were sufficient to close the
recommendations.




Semiannual Report to Congress              22                            April 2011
Follow-Up on the Evaluation of Data Flows for Board Employee Data Received
by the Office of Employee Benefits and its Contractors

We also completed follow-up work on one of two recommendations made in our
report on Evaluation of Data Flows for Board Employee Data Received by OEB
[Office of Employee Benefits] and its Contractors. Based on our follow-up work
that identified process changes, we closed the recommendation that called for
further control enhancements over employee data exchanged between the Board
and a contractor by implementing an automated solution to eliminate manual
processes.


ONGOING INSPECTION AND EVALUATION WORK AT THE BOARD

Failed Bank Reviews

Section 38(k) of the FDI Act, as amended by the Dodd-Frank Act, requires that
the OIG review the supervision of failed banks when the losses to the DIF are
above the materiality threshold, or are at or below the threshold but exhibit
unusual circumstances warranting an in-depth review. A $200 million threshold
applies to losses that occur between January 1, 2010, and December 31, 2011. As
discussed below, we are currently conducting three failed bank reviews. These
banks had total assets of approximately $2.87 billion and total losses estimated at
$324.8 million, or approximately 11.3 percent of total assets.


Pierce Commercial Bank

On November 5, 2010, the Washington Department of Financial Institutions
closed Pierce Commercial Bank (Pierce), headquartered in Tacoma, Washington.
At closure, the FDIC reported that Pierce had $221 million in total assets as of
September 30, 2010. On November 5, 2010, the FDIC estimated that the cost of
the failure to the DIF would be $21.3 million, which did not meet the materiality
threshold as defined under section 38(k) of the FDI Act. However, as discussed
in more detail in the next section, the FDI Act, as amended, requires that the IG of
each federal banking agency evaluate all losses to the DIF at or below the
threshold that occurred after October 1, 2009, and determine whether unusual
circumstances exist that warrant an in-depth review. We have determined that
Pierce’s failure presents unusual circumstances warranting an in-depth review
because (1) the bank’s engagement in a new business activity—mortgage
banking—contributed to the failure, (2) allegedly fraudulent lending practices in
the bank’s new business activity contributed to the failure, and (3) the bank
received $6.8 million in funds from the Treasury’s Capital Purchase Program
(CPP) under TARP. We expect to issue our report by September 30, 2011.




Semiannual Report to Congress               23                             April 2011
First Community Bank

On January 28, 2011, the New Mexico Financial Institutions Division closed First
Community Bank (First Community), headquartered in Taos, New Mexico. At
closure, the FDIC reported that First Community had $2.46 billion in total assets as
of September 30, 2010. On February 24, 2011, the FDIC IG notified our office that
the FDIC had estimated a $260.0 million loss to the DIF, which exceeds the
statutory threshold requiring us to conduct a material loss review. As such, we have
initiated a material loss review and plan to issue our report by August 24, 2011.


Legacy Bank

On March 11, 2011, the Wisconsin Department of Financial Institutions closed
Legacy Bank (Legacy), headquartered in Milwaukee, Wisconsin. At closure, the
FDIC reported that Legacy had $190.4 million in total assets as of December 31,
2010. As of March 11, 2011, the FDIC estimated that the cost of the failure to the
DIF would be $43.5 million, which did not meet the materiality threshold as
defined under section 38(k) of the FDI Act. However, we have determined that
Legacy’s failure presents unusual circumstances warranting an in-depth review
because (1) examiners concluded that the bank’s CEO engaged in an unsafe and
unsound banking practice and (2) the bank received $5.5 million in funds from the
Treasury’s CPP under the TARP. We expect to issue our report by
December 31, 2011.


Analysis of Lessons Learned from OIG Bank Failure Reviews

We are conducting a cross-cutting review of the lessons learned from our
cumulative body of bank failure reviews to identify themes related to the causes
of the bank failures and recommend potential improvements in bank supervisory
policies and practices. We have completed our analysis and anticipate issuing our
report during the next reporting period.


Review of the Board’s Oversight of the Next Generation $100 Note (Currency)
Production

On October 1, 2010, the Board announced a delay in the issue date of the
redesigned Next Generation $100 note originally scheduled for February 10,
2011. Pursuant to the Federal Reserve Act, the Board is authorized to issue
Federal Reserve notes, which are produced by the Treasury’s Bureau of
Engraving and Printing. The Bureau of Engraving and Printing identified a
problem with sporadic creasing of newly printed $100 notes. The OIG is
conducting a concurrent review with the Treasury OIG. The objectives of our
review are to (1) assess the Board’s oversight of the design and production of the


Semiannual Report to Congress              24                             April 2011
$100 notes, (2) review the actions taken to address the current printing problems
and the controls initiated to minimize the likelihood of future printing problems,
and (3) assess plans for the disposition of the $100 notes that have already been
printed. We expect to issue our report during the next reporting period.


Evaluation of Prompt Regulatory Action Provisions

We are working with the OIGs of the FDIC and the Treasury on a joint evaluation
of the prompt regulatory action provisions of the FDI Act. The prompt regulatory
action provisions of the FDI Act (section 38, PCA, and section 39, Standards for
Safety and Soundness (S&S)) require federal regulators to institute a system of
regulatory actions that is triggered when an institution fails to meet minimum
capital levels or certain S&S standards. These provisions were intended to
increase the likelihood that regulators would respond promptly and forcefully to
minimize losses to the DIF when federally insured banks fail. Our work is
focused on the following objectives:

    •   Determining the purpose of and circumstances that led to the prompt
        regulatory action provisions (FDI Act sections 38 and 39) and lessons
        learned from the savings and loan crisis;

    •   Evaluating to what extent PCA and the S&S standards were a factor in
        bank failures and problem institutions during the current crisis;

    •   Assessing whether these provisions prompted federal regulators to act
        more quickly and more forcefully to limit losses to the DIF, in light of
        findings and lessons learned from the savings and loan crisis and
        regulators’ use of prompt regulatory action provisions in the current crisis;
        and

    •   Determining whether there are other non-capital measures that provide a
        leading indication of risks to the DIF that should be considered as part of
        the prompt regulatory action provisions.

We plan to issue a joint report during the next reporting period.




Semiannual Report to Congress               25                              April 2011
Information on Nonmaterial Losses to the Deposit
Insurance Fund, as Required by the Dodd-Frank Act
The FDI Act, as amended by the Dodd-Frank Act, requires the IG of the
appropriate federal banking agency to report, on a semiannual basis, certain
information on financial institutions that incurred nonmaterial losses to the DIF
and that failed during the respective six-month period. As shown in the table on
the next page, seven failed state member banks had losses to the DIF that did not
meet the materiality threshold, which currently is a loss in excess of $200 million.
Cumulatively, these institutions had total assets of approximately $2.19 billion
and losses estimated at $411.5 million, or 18.8 percent of total assets.

When bank failures result in nonmaterial losses to the DIF, the IG is required to
determine (1) the grounds identified by the federal banking agency or the state
bank supervisor for appointing the FDIC as receiver, and (2) whether the losses to
the DIF present unusual circumstances that would warrant an in-depth review. 4 If
no unusual circumstances are identified, the IG is required to provide an
explanation of its determination.

We reviewed each of the seven state member bank failures to determine if the
resulting loss to the DIF exhibited unusual circumstances that would warrant an
in-depth review. In general, we considered a loss to the DIF to present unusual
circumstances if the conditions associated with the bank’s deterioration, ultimate
closure, and supervision were not addressed in any of our prior bank failure
reports or involved potential fraudulent activity. To make this determination, we
analyzed key data from the five-year period preceding the bank’s closure. This
data generally comprised Federal Reserve Bank and state examination schedules;
Reports of Examination, including CAMELS ratings and financial data; informal
and formal enforcement actions and other supervisory activities, such as
visitations; and PCA determinations. As shown in the table on the next page, we
determined that losses to the DIF for two of the seven state member banks
exhibited unusual circumstances warranting in-depth reviews.




   4. Typically, the state closes state member banks and appoints the FDIC as receiver.

Semiannual Report to Congress                      26                                 April 2011
Nonmaterial State Member Bank Failures,
October 1, 2010, through March 31, 2011
                                                    DIF
                                                  Projected                 OIG Summary of
                                     Asset size     Loss        Closure     State’s Grounds
 State Member Bank     Location      (millions)   (millions)     Date       for Receivership      OIG Determination

Progress Bank of       Tampa, FL      $ 93.4       $ 25.0      10/22/2010        Imminent              No unusual
   Florida                                                                      insolvency        circumstances noted

Pierce Commercial      Tacoma, WA    $ 217.8       $ 21.3      11/05/2010   Unsafe and unsound   Unusual circumstances
   Bank                                                                         condition        identified; report to be
                                                                                                  issued by 09/30/2011
                                                                                                      (see page 23)

First Banking Center   Burlington,   $ 785.8       $ 142.6     11/19/2010     Operating in an          No unusual
                           WI                                                 unsafe manner       circumstances noted

Paramount Bank         Farmington    $ 239.3       $ 89.4      12/10/2010   Unsafe and unsound         No unusual
                        Hills, MI                                               condition         circumstances noted

First Commercial       Orlando, FL   $ 614.5       $ 78.0      01/07/2011        Imminent              No unusual
   Bank of Florida                                                              insolvency        circumstances noted

Community First        Chicago, IL   $ 51.5        $ 11.7      02/04/2011     Operating in an          No unusual
  Bank of Chicago                                                           unsafe and unsound    circumstances noted
                                                                                  manner

Legacy Bank            Milwaukee,    $ 190.4       $ 43.5      03/11/2011     Operating in an    Unusual circumstances
                          WI                                                unsafe and unsound   identified; report to be
                                                                                  manner          issued by 12/31/2011
                                                                                                      (see page 24)




Semiannual Report to Congress                           27                                       April 2011
Bureau of Consumer Financial Protection
The Dodd-Frank Act established the Bureau as an independent entity within the
Federal Reserve System and designated our office as the Bureau’s OIG. The
Bureau’s statutory purpose is to implement and, as applicable, enforce federal
consumer protection law for financial services consistently to ensure that all
consumers have access to markets for financial products and services and that these
markets are fair, transparent, and competitive. In accordance with the Dodd-Frank
Act, the Secretary of the Treasury has designated July 21, 2011, as the date that
certain authorities will transfer from other agencies to the Bureau. The following
are highlights of our Bureau-related oversight activities during the last six months.


COMPLETED WORK

Joint Response by the IGs of the Treasury and the Board to a Congressional
Request for Information Concerning the Bureau

On January 10, 2011, the Board and the Treasury OIGs jointly issued a letter that
responded to a November 22, 2010, congressional request for information related
to the Bureau’s transparency, organizational structure, and regulatory agenda. In
order to respond, we (1) reviewed the applicable sections of the Dodd-Frank Act
and other relevant laws and (2) requested, obtained, and reviewed relevant
information and documentation from the Board and the Treasury. In addition, we
interviewed key Treasury officials, including the Assistant to the President and
Special Advisor to the Secretary of the Treasury on the Consumer Financial
Protection Bureau, the General Counsel, the Chief of Staff of the Bureau
Implementation Team, the Deputy Assistant Secretary for Management and
Budget, and the Director of the Office of Financial Management.

As noted in our letter, Secretary of the Treasury Timothy Geithner delegated his
interim authority to establish the Bureau to Professor Elizabeth Warren and other
Treasury officials. Professor Warren is the Assistant to the President and Special
Advisor to the Secretary of the Treasury on the Consumer Financial Protection
Bureau. According to Treasury, Professor Warren’s implementation activities are
overseen by Secretary Geithner, and she has regular meetings with senior
Treasury officials regarding the status of start-up efforts and the priorities she has
identified for the Bureau.

We noted that Treasury implemented a policy to disclose meetings regarding
Bureau-related activities between senior Treasury officials, including Professor
Warren, and individuals from private sector entities. In addition, Treasury noted
that Professor Warren’s schedule had been, and would continue to be, posted on
its website.

With respect to organizational structure, we reported that the Bureau had prepared
a draft organizational plan. Our report also included, as requested, the names of
Treasury and Board employees and detailees in certain specified categories of


Semiannual Report to Congress                 28                             April 2011
positions, such as members of the Senior Executive Service, who were working to
build the Bureau’s infrastructure. To support implementation activities, the
Bureau requested and received from the Board nearly $33 million. With regard to
the regulatory agenda, Professor Warren provided examples of two policy
initiatives that will receive priority: (1) consolidating duplicative and overlapping
mortgage disclosure forms mandated by the Truth in Lending Act and the Real
Estate Settlement Procedures Act and (2) simplifying credit card agreements to
ensure that customers fully understand fees and finance charges.

Finally, we reported that Treasury’s interim authority extends beyond the
designated transfer date if the Bureau does not have its Director in place at that
time. After the July 21, 2011, designated transfer date and until the Director is
confirmed, the Treasury Secretary has the authority to carry out certain functions
of the Bureau, which include prescribing rules, conducting examinations, and
enforcing orders. Treasury cannot, however, exercise the Bureau’s newly
established authorities, which include prohibiting unfair, deceptive, or abusive
acts or practices. As of the end of this reporting period, the Bureau’s Director had
not been nominated.

In addition to our January 10, 2011, response, we provided two oral briefings to
staff members of representatives on the House Committee on Financial Services
during this reporting period.


Letter to Congress Regarding Additional Federal Employees Working to
Establish the Bureau

On March 15, 2011, we issued a follow-up letter to the November 22, 2010,
congressional request on the Bureau’s implementation activities. The letter
forwarded the names of employees in certain specified categories of positions
from federal agencies other than the Board and the Treasury who performed tasks
relating to establishing the Bureau. The HUD, the FDIC, the OCC, the OTS, the
NCUA, and the Federal Trade Commission provided us the names of more than
100 employees who were working in various capacities to facilitate the transfer of
their organizations’ functions to the Bureau.


ONGOING WORK

In coordination with the Treasury OIG, we are monitoring the activities that are
under way to establish the new Bureau. Our ongoing oversight efforts are primarily
focused on issues related to funding, organizational structure and staffing, planning
and coordination, and supervisory and rulemaking activities. We will continue to
conduct regular meetings with Bureau officials and management and plan to begin
specific audits and evaluations related to areas that pose the greatest risks to the
Bureau’s operations and its ability to fulfill its mission.


Semiannual Report to Congress               29                             April 2011
Investigations
The Investigations program conducts criminal, civil, and administrative
investigations related to Board and Bureau programs and operations. The OIG
operates under statutory law enforcement authority granted by the U.S. Attorney
General, which vests our special agents with the authority to carry firearms, make
arrests without a warrant, seek and execute search and arrest warrants, and seize
evidence. Our special agents engage in joint task force and other criminal
investigations involving matters such as bank fraud, mortgage fraud, money
laundering, and other financially-related crimes impacting federally regulated
financial institutions. OIG investigations are conducted in compliance with the
CIGIE’s Quality Standards for Investigations.


INVESTIGATIVE ACTIVITIES

During this reporting period, we opened 3 cases, closed 5 cases, and ended the
period with 39 investigations in progress. Due to the sensitivity of these
investigations, we only report on concluded and ongoing activities that have
resulted in criminal, civil, or administrative action. The following summaries
highlight our significant investigative activity during this semiannual reporting
period.


Former CEO, President, and Chairman of Orion Bancorp/Orion Bank Indicted
on Bank Fraud Charges

On March 30, 2011, a former CEO, President, and
Chairman of Orion Bank was indicted on 13
counts of conspiracy, obstruction of a bank
examination, misapplication of bank funds, false
bank entries, money laundering, and mail and wire
fraud. The OIG initiated this investigation into
allegations of insider abuse at Orion Bank after
Federal Reserve and State of Florida bank
examiners identified highly questionable transactions by senior bank management
to loan money beyond the legal lending limit to nominee entities controlled by an
Orion Bank customer. 5 The Federal Bureau of Investigation (FBI), the FDIC, the
Internal Revenue Service, and the Special Inspector General for the TARP are
also working on this investigation.

According to the indictment, the CEO conspired with others to create two Limited
Liability Companies in order to lend money to nominee entities controlled by an
Orion customer to circumvent the State of Florida legal lending limit
requirements. The indictment also alleged that the CEO instructed other bank


    5. A nominee entity is a person or firm into whose name securities or other properties are
transferred by agreement.

Semiannual Report to Congress                        30                                   April 2011
executives to fund two loans totaling $80 million despite knowing the customer
was not creditworthy and had previously submitted fraudulent financial
documentation to Orion Bank, including altered foreign and domestic bank
statements, as well as fake trust documents.

The indictment stated that, after the loan transactions were funded, the CEO and
others authorized a $15 million stock purchase by the Orion customer. The stock
sale proceeds allegedly were passed from Orion Bancorp (the bank holding
company) to Orion Bank, creating the illusion of a capital injection into Orion
Bank. According to the indictment, the loans to the nominee entities and the
stock purchases fraudulently misrepresented Orion Bank’s deteriorating loan
portfolio and financial condition. The CEO allegedly submitted an Orion Call
Report (Report of Condition & Income) to federal regulators with Orion’s non-
performing loans disguised as current, accruing loans made to borrowers with the
financial capacity to repay the debts. The indictment stated that, as a result of the
actions taken by the CEO and others, Orion Bank made material
misrepresentations to federal and state bank examiners that portrayed Orion
Bank’s financial condition as significantly better than it actually was at that time.

On November 9, 2009, the Federal Reserve Board issued an enforcement action in
the form of a non-consent PCA Directive that included a provision ordering the
removal of Orion’s CEO, who also served as the bank President and the Chairman
of the Board of Directors. The State closed Orion on November 13, 2009, and
named the FDIC as receiver. Orion’s failure resulted in a $593.8 million loss to
the DIF.

Also on March 30, 2011, two senior loan officers pleaded guilty to one count of
conspiracy to commit bank fraud and obstructing an examination of a financial
institution, and the previously mentioned Orion customer pleaded guilty to one
count of conspiracy to commit bank fraud.


California Woman Sentenced to 18 Months for False Personation of a Federal
Reserve Official in an Advance Fee Scam

In March 2011, a California woman was sentenced to 18 months in federal prison
for participating in an advance fee scheme that collected approximately
$3.8 million from victims who were falsely promised low-interest, multi-million
dollar loans from “the Federal Reserve Bank.” The subject was also sentenced to
six months home detention and one year of supervised release. As part of the
sentence, the subject was ordered to pay restitution in the amount of $650,000
jointly and severally with another subject.

As indicated in previous semiannual reports, the OIG initiated its investigation
into this matter in late 2008. The investigation was conducted jointly with the



Semiannual Report to Congress                31                             April 2011
FBI, U.S. Immigration and Customs Enforcement, the U.S. Postal Inspection
Service, and the Los Angeles Police Department.

The subject represented herself as an employee of the Federal Reserve Bank to
individuals in order to obtain money from them. The subject collected up-front
“Minimum Required Capital” payments from individuals seeking loans. For
example, the subject represented herself to one victim as a junior underwriter with
the Federal Reserve Bank who could offer pre-approved commercial loans
underwritten by the Federal Reserve Bank on favorable terms with no application
paperwork. The victim wired money to the subject, who in turn wired most of the
victim’s money to another subject. The victim did not receive a loan, and the
money he paid to the subject was not returned.

In December 2010, the subject pleaded guilty to a criminal information charging
false personation of an employee of a Federal Reserve Bank. As previously
reported, the other subject identified during this investigation was sentenced to 96
months in federal prison in June 2010.


Former Board Employee Agrees to Civil Settlement as a Result of Violating
Post-Employment Restrictions

On January 20, 2011, a former Board employee agreed to a civil settlement with
the U.S. Attorney’s Office for the District of Columbia and to pay a settlement
amount of $6,000 for violating post-employment restrictions. In November 2009,
the OIG received an allegation from the Board that in August and
September 2009, a former Board employee made representations to the Board,
which violated post-employment restrictions.

The investigation disclosed that the former employee was informed about the
post-employment restrictions and was provided with post-employment
information in March 2009, prior to her departure from the Board. Pursuant to the
settlement agreement, the U.S. Attorney’s Office agreed to release the former
employee from any further civil or criminal actions or claims relating to her
violations of the prohibited conduct in this case.


Former Board Employee Sentenced to Three Years Probation for Theft of
Government Property

In December 2010, a former Board employee was sentenced to 3 years probation
with conditions, which included 6 months of home confinement and 100 hours of
community service, and was ordered to pay $59,457 in restitution. The employee
was sentenced after pleading guilty to one count of theft of government property.




Semiannual Report to Congress               32                             April 2011
As previously reported, in August 2007 the OIG initiated an investigation into an
alleged theft of government cellular phones, and in October 2009, the Board
employee was indicted for selling at least 10 cellular phones, some for as much as
$250 each. Other phones were allegedly traded for services, such as discounts for
hairstyling services. The employee was charged with theft of government
property, trafficking in unauthorized access devices, and tampering with witness
testimony. She was suspended from her job, without pay, and awaited a
September 2010 trial, at which time she pleaded guilty to one count of theft of
government property. After she entered a guilty plea, the Board terminated her
employment.

The investigation disclosed that the alleged thefts occurred between November
2006 and September 2007, while the employee, through her position, had access
to the phones. According to the government’s evidence, the employee stole at
least seven cellular phones and told recipients of the phones that the phones came
with unlimited calling plans. The recipients proceeded to incur approximately
$60,000 in cellular phone charges that were billed to the Board.


Maryland Husband and Wife Sentenced in Mortgage Fraud Task Force
Investigation

In December 2010, a Maryland woman was sentenced to six months of home
detention for participating in a mortgage fraud scheme. In January 2011, the
woman’s husband was also sentenced to six months of home detention for his role
in the scheme. Both subjects were also ordered to pay restitution in the amount of
$859,191 at a rate of $150 per month each until the debt is jointly and severally
satisfied. A third subject has yet to be sentenced for her role in this scheme.

As previously reported in our last semiannual report, OIG special agents assigned
to the Maryland Mortgage Fraud Task Force conducted a joint investigation with
the FBI into three subjects who conspired to commit a mortgage fraud scheme
that netted more than $1.2 million from three federally regulated financial
institutions. The investigation disclosed that between June and September 2007,
the three subjects submitted false mortgage applications for three properties that
included false certifications of occupancy and inflated income. Each of the
properties went into foreclosure or short sale, resulting in a total loss to the banks
exceeding $850,000.


Individual Sentenced to 18 Months for Trafficking in Counterfeit Goods

During this reporting period, a subject who was previously indicted entered a
guilty plea to one count of trafficking in counterfeit goods and was sentenced to
18 months in prison. As was previously reported, the OIG initiated its
investigation based on a request for assistance from the U.S. Postal Inspection


Semiannual Report to Congress                33                              April 2011
Service concerning alleged money laundering and deposit structuring by two
subjects. The other subject previously pleaded guilty to one count of trafficking
in counterfeit goods.

The investigation determined that, over a one-year period, the subjects deposited
approximately $1 million of Postal Money Orders into bank accounts at various
financial institutions, including several Board-regulated institutions. Information
developed during the investigation revealed that the subjects were aware of the
Postal Money Order purchasing requirements and patterned their purchases to
avoid detection.

In December 2009, a federal grand jury indicted the subjects on charges of money
laundering and trafficking in counterfeit goods. The indictment charged that the
subjects knowingly conducted financial transactions affecting interstate and
foreign commerce through the structured purchase of 636 Postal Money Orders
valued at $579,865, using the proceeds from the unlawful sale of counterfeit
merchandise throughout the United States. During this investigation, OIG special
agents worked closely with Postal Inspectors analyzing financial transactions in
support of the money laundering violations.


INVESTIGATIVE STATISTICS
Summary Statistics on Investigations during the Reporting Period
                            Investigative Actions                       Number

 Investigative Caseload
    Investigations Open at End of Previous Reporting Period               41
    Investigations Opened during Reporting Period                          3
    Investigations Closed during Reporting Period                          5
    Total Investigations Open at End of Reporting Period                  39
 Investigative Results for Reporting Period
    Referred to Prosecutor                                                  3
    Joint Investigations                                                   31
    Referred for Audit                                                      0
    Referred for Administrative Action                                      3
    Oral and/or Written Reprimands                                          0
    Terminations of Employment                                              1
    Arrests                                                                 0
    Suspensions                                                             0
    Debarments                                                              0
    Indictments                                                             1
    Criminal Information                                                    0
    Convictions                                                             6
    Monetary Recoveries                                                    $0
    Civil Actions (Fines and Restitution)                              $6,000
    Criminal Fines (Fines and Restitution)                         $1,569,148




Semiannual Report to Congress                                 34                 April 2011
HOTLINE ACTIVITIES
Individuals may report fraud, waste, abuse, or mismanagement related to the
programs or operations of the Board and the Bureau by contacting the OIG
Hotline. During this reporting period, the Hotline received 205 complaints
covering a broad range of programs and activities. Coupled with the 42
complaints pending from the previous reporting period, the total number of
complaints for the period was 247. Each complaint was analyzed and, as
appropriate, coordinated with OIG and/or other federal staff. As warranted, the
Hotline referred complaints to the appropriate entities for handling, to include the
OIG’s program offices, Board offices, and other federal agencies.

A significant number of complainants continued to contact the Hotline regarding
suspicious and unsolicited email communications invoking the Federal Reserve
name. Hotline staff continues to advise all individuals that these “phishing”
scams are solicitations attempting to obtain the personally identifying and/or
financial information of the recipient and that neither the Board nor the Federal
Reserve Banks endorse or are in any way involved in these solicitations. Many
times these fraudulent emails contain images or use language that appears
legitimate or use other social engineering techniques to mislead the recipient. As
appropriate, the OIG may investigate these complaints. During this reporting
period, several complaints involving victims of such scams who incurred
monetary losses were referred to the OIG’s Investigations program for appropriate
action. Hotline staff are currently developing educational material for individuals
regarding these fraudulent scams.

The OIG continued to receive a number of complaints from individuals wanting
to file non-criminal consumer complaints against financial institutions. Hotline
staff analyzes each of these complaints and typically refers the complainant to the
consumer complaint group of the appropriate federal regulator for the bank or
institution involved in the complaint, such as the Federal Reserve Consumer Help
group or the OCC Customer Assistance Group. The Hotline also received
inquiries from individuals seeking advice or information regarding monetary
policy, consumer protection, and Board regulations. These inquiries were
referred to the appropriate Board offices and other federal or state agencies.

Summary Statistics on Hotline Activities during the Reporting Period
            Hotline Complaints                                                               Number

 Complaints Pending from Previous Reporting Period                                               42
 Complaints Received during Reporting Period*                                                   205
 Total Complaints for Reporting Period                                                          247

 Complaints Resolved during Reporting Period**                                                  246
 Complaints Pending                                                                               1

 *During this reporting period, management determined that certain matters previously reported as Hotline complaints,
such as copies of security incident reports provided by the Board, would no longer be counted as Hotline complaints.
**Based on the decision to no longer count certain matters as Hotline complaints, an adjustment was made to “Complaints
Resolved during Reporting Period” to account for “Complaints Pending from Previous Reporting Period” that were no
longer defined as Hotline complaints.



Semiannual Report to Congress                                 35                                          April 2011
/HJDO6HUYLFHV
The Legal Services program serves as the independent legal counsel to the IG and
the OIG staff. The Legal Services staff provides comprehensive legal advice,
research, counseling, analysis, and representation in support of OIG audits,
investigations, inspections, evaluations, and other professional, management, and
administrative functions. This work provides the legal basis for the conclusions,
findings, and recommendations contained within OIG reports. Moreover, Legal
Services keeps the IG and the OIG staff aware of recent legal developments that
may affect the activities of the OIG, the Board and the Bureau.

In accordance with section 4(a)(2) of the IG Act, the Legal Services staff conducts
an independent review of newly enacted and proposed legislation and regulations
to determine their potential effect on the economy and efficiency of the Board’s
and the Bureau's programs and operations. During this reporting period, Legal
Services reviewed 20 legislative and 11 regulatory items.




Semiannual Report to Congress            36                              April 2011
Communications and Coordination
While the OIG’s primary mission is to enhance the economy, efficiency, and
effectiveness of Board and Bureau programs and operations, we also coordinate
externally and work internally to achieve our goals and objectives. Externally, we
regularly coordinate with and provide information to Congress and congressional
staff. We also are active members of the broader IG professional community and
promote collaboration on shared concerns. Internally, we consistently strive to
enhance and maximize efficiency and transparency in our infrastructure and
day-to-day operations. Within the Board, the Bureau, and the Federal Reserve
System, we continue to provide information about the OIG’s roles and
responsibilities. In addition, we participate in an advisory capacity on various
Board work groups. Highlights of our activities follow.


Congressional Coordination and Testimony

The OIG has been communicating and coordinating with various congressional
committees on issues of mutual interest. During the reporting period, we
provided seven responses to congressional members and staff.


Council of Inspectors General on Financial Oversight

Consistent with the Dodd-Frank Act, the CIGFO is required to meet at least
quarterly to facilitate the sharing of information among the IGs and to discuss the
ongoing work of each IG, with a focus on concerns that may apply to the broader
financial sector and ways to improve financial oversight. The Treasury IG chairs
the CIGFO, which held its first meeting in October 2010. The Board’s IG served
as the CIGFO vice chair. The Dodd-Frank Act authorizes the CIGFO, by a
majority vote, to convene a working group to evaluate the effectiveness and
internal operations of the FSOC. In addition, the CIGFO is required to annually
issue a report that highlights the IGs’ concerns and recommendations, as well as
issues that may apply to the broader financial sector.


Council of the Inspectors General on Integrity and Efficiency and IG
Community Involvement

The IG serves as a member of the CIGIE. Collectively, the members of the
CIGIE help improve government programs and operations. The CIGIE provides a
forum to discuss government-wide issues and shared concerns. The IG also
serves as a member of the CIGIE Legislation Committee, which is the central
point of information regarding legislative initiatives and congressional activities
that may affect the community.

The Associate IG for Legal Services serves as the Vice Chair of the Council of
Counsels to the IG, and her staff attorneys are members of the council. In


`Semiannual Report to Congress              37                            April 2011
addition, the Associate IG for Audits and Attestations serves as co-chair of the IT
Committee of the Federal Audit Executive Council and works with audit staff
throughout the IG community on common IT audit issues.


Financial Regulatory Coordination

To foster cooperation on issues of mutual interest, including issues related to the
current financial crisis, the IG meets periodically with the IGs from other federal
financial regulatory agencies: the FDIC, the Treasury, the NCUA, the SEC, the
Farm Credit Administration, the Commodity Futures Trading Commission, the
Pension Benefit Guarantee Corporation, the Export-Import Bank, and the FHFA.
In addition, the Associate IG for Audits and Attestations and the Associate IG for
Inspections and Evaluations meet with their financial regulatory agency OIG
counterparts to discuss various topics, including bank failure material loss review
best practices, annual plans, and ongoing projects. We also coordinate with the
Government Accountability Office regarding financial regulatory and other
related issues.


OIG Information Technology

During this reporting period, the OIG completed the 2010 annual security review
of its IT infrastructure, as required by FISMA. We hired an independent
contractor to conduct the review. We also successfully completed our bi-annual
IT contingency test in coordination with the Board’s IT division. The purpose of
the contingency test is to ensure the proper function of the OIG’s contingency
infrastructure for continuity of operations in the event of an emergency.

We continuously assess technological advances to enhance and optimize our IT
services and resources to most effectively achieve our mission and increase
productivity and communication. During the coming months, we plan to replace
our intranet to enhance functionality and search capability using a web-based
application. We will implement a virtualization environment (multiple servers
residing on the same machine without interfering with each other) that will allow
the OIG staff to conduct their work more efficiently and effectively.




`Semiannual Report to Congress              38                            April 2011
Appendixes
Appendix 1
Audit, Inspection, and Evaluation Reports Issued with Questioned Costs
during the Reporting Perioda
                                       Reports                                              Number         Dollar Value

 For which no management decision had been made by the commencement of the                      0                $0
    reporting period

 That were issued during the reporting period                                                   0                $0

 For which a management decision was made during the reporting period                           0                $0

  (i)    dollar value of recommendations that were agreed to by management                      0                $0

  (ii)   dollar value of recommendations that were not agreed to by management                  0                $0

 For which no management decision had been made by the end of the reporting period              0                $0

 For which no management decision was made within six months of issuance                        0                $0

  a. Because the Board and the Bureau are primarily regulatory and policymaking agencies, our recommendations
typically focus on program effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary
benefit associated with their implementation is often not readily quantifiable.




_______________________________________________________________________________
Semiannual Report to Congress          41                             April 2011
Appendix 2
Audit, Inspection, and Evaluation Reports Issued with Recommendations that
Funds Be Put to Better Use during the Reporting Perioda
                                       Reports                                              Number         Dollar Value

 For which no management decision had been made by the commencement of the                      0                $0
    reporting period

 That were issued during the reporting period                                                   0                $0

 For which a management decision was made during the reporting period                           0                $0

  (i)    dollar value of recommendations that were agreed to by management                      0                $0

  (ii)   dollar value of recommendations that were not agreed to by management                  0                $0

 For which no management decision had been made by the end of the reporting period              0                $0

 For which no management decision was made within six months of issuance                        0                $0

  a. Because the Board and the Bureau are primarily regulatory and policymaking agencies, our recommendations
typically focus on program effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary
benefit associated with their implementation is often not readily quantifiable.




_______________________________________________________________________________
Semiannual Report to Congress          42                             April 2011
Appendix 3
OIG Reports with Recommendations that Were Open during
the Reporting Perioda
                                                                             Recommendations               Status of Recommendations

                                                          Issue                   Mgmt.       Mgmt.    Last Follow-up
                     Report Title                         Date         No.        Agrees     Disagrees      Date      Closed Open

 Evaluation of Service Credit Computations                08/05          3           3            –            03/07           1    2

 Security Control Review of the Central Document          10/06        16           16            –            09/09         14     2
   and Text Repository System (Non-public Report)

 Audit of the Board’s Payroll Process                     12/06          7           7            –            03/10           3    4

 Security Control Review of the Internet Electronic       02/07        13           13            –            09/09         12     1
   Submission System (Non-public Report)

 Audit of the Board’s Compliance with Overtime            03/07          2           2            –            03/08           1    1
   Requirements of the Fair Labor Standards Act

 Security Control Review of the Federal Reserve           01/08          7           7            –            11/10           7    –
   Integrated Records Management Architecture
   (Non-public Report)

 Review of Selected Common Information Security           03/08          6           6            –              –             –    6
   Controls (Non-public Report)

 Security Control Review of the FISMA Assets              09/08        11           11            –              –             –   11
   Maintained by FRB Boston (Non-public Report)

 Evaluation of Data Flows for Board Employee Data         09/08          2           2            –            03/11           1    1
   Received by OEB and its Contractors (Non-public
   Report)

 Audit of the Board’s Information Security Program        09/08          2           2            –            11/10           1    1

 Control Review of the Board’s Currency                   09/08          6           6            –            03/10           5    1
   Expenditures and Assessments

 Audit of Blackberry and Cell Phone Internal Controls     03/09          3           3            –              –             –    3

 Inspection of the Board’s Law Enforcement Unit           03/09          2           2            –              –             –    2
    (Non-public Report)

 Security Control Review of the Audit Logging             03/09          4           4            –              –             –    4
   Provided by the Information Technology General
   Support System (Non-public Report)

 Material Loss Review of First Georgia Community          06/09          1           1            –            03/11           1    –
  Bank

 Material Loss Review of County Bank                      09/09          1           1            –            03/11           1    –

 Audit of the Board’s Processing of Applications for      09/09          2           2            –              –             –    2
   the Capital Purchase Program under the Troubled
   Asset Relief Program

 Audit of the Board’s Information Security Program        11/09          4           4            –            11/10           2    2

   a. A recommendation is closed if (1) the corrective action has been taken; (2) the recommendation is no longer applicable; or (3) the
appropriate oversight committee or administrator has determined, after reviewing the position of the OIG and division management, that
no further action by the agency is warranted. A recommendation is open if (1) division management agrees with the recommendation
and is in the process of taking corrective action, or (2) division management disagrees with the recommendation and we have referred or
are referring it to the appropriate oversight committee or administrator for a final decision.




Semiannual Report to Congress                                43                                            April 2011
Appendix 3—continued
OIG Reports with Recommendations that Were Open during
the Reporting Period
                                                                          Recommendations              Status of Recommendations

                                                        Issue                  Mgmt.      Mgmt.    Last Follow-up
                    Report Title                        Date        No.        Agrees    Disagrees      Date      Closed Open

 Material Loss Review of Community Bank of West         01/10         1           1           –            03/11          1     –
  Georgia

 Material Loss Review of CapitalSouth Bank              03/10         1           1           –            03/11          1     –

 Security Control Review of the Lotus Notes and         06/10        10          10           –              –            –    10
   Lotus Domino Infrastructure (Non-public Report)

 Audit of the Board’s Information Security Program      11/10         3           3           –              –            –     3

 Security Control Review of the Internet Electronic     12/10         6           6           –              –            –     6
   Submission System (Non-public Report)

 Review of the Joint Implementation Plan for            03/11        1b           1           –              –            –     1
   theTransfer of Office of Thrift Supervision
   Functions

 Audit of the Board’s Transportation Subsidy            03/11         3           3           –              –            –     3
   Program

   b. This recommendation was directed to all principals of the Joint Implementation Plan: the OCC, the FDIC, and the Board.
 Resolution of the recommendation will require coordination with the OCC and the FDIC.




Semiannual Report to Congress                              44                                          April 2011
Appendix 4
Audit, Inspection, and Evaluation Reports Issued during the Reporting Period
                                         Title                                                   Type of Report

 Reviews of Bank Failures

   Material Loss Review of Midwest Bank and Trust Company                                           Evaluation

   Review of the Failure of Independent Bankers’ Bank                                               Evaluation

 Information Technology Audits

   Audit of the Board’s Information Security Program                                                  Audit

   Security Control Review of the Internet Electronic Submission System (Non-public Report)           Audit

 Program Audits and Evaluations

   The Federal Reserve’s Section 13(3) Lending Facilities to Support Overall Market Liquidity:        Audit
   Function, Status, and Risk Management

   Joint Response by the Inspectors General of the Department of the Treasury and Board of         Evaluation
   Governors of the Federal Reserve System to a Request for Information Regarding the Bureau
   of Consumer Financial Protection

   Federal Financial Institutions Examination Council Financial Statements as of and for the          Audit
   Years Ended December 31, 2010 and 2009, and Independent Auditors’ Report

   Board of Governors of the Federal Reserve System Financial Statements as of and for the            Audit
   Years Ended December 31, 2010 and 2009, and Independent Auditors’ Report

   Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision        Evaluation
   Functions

   Audit of the Board’s Transportation Subsidy Program                                                Audit




Total Number of Audit Reports: 6
Total Number of Inspection and Evaluation Reports: 4


Full copies of these reports are available on our website at
http://www.federalreserve.gov/oig/default.htm




Semiannual Report to Congress                               45                                      April 2011
Appendix 5
OIG Peer Reviews

Government auditing and investigative standards require that our audit and
investigative units each be reviewed by a peer OIG organization every three
years. Section 989C of the Dodd-Frank Act amended the IG Act to require that
OIGs provide in their semiannual reports to Congress specified information
regarding (1) peer reviews of their respective organizations and (2) peer reviews
they have conducted of other OIGs. The following information is provided to
address the Dodd-Frank Act requirements.

    •    No peer reviews of the OIG were conducted during this reporting period.

    •    The last peer review of the OIG’s Audits and Attestations program was
         completed in September 2008 by the U.S. Government Printing Office
         OIG. No recommendations from this or any prior peer reviews are
         pending.

    •    The last peer review of the OIG’s Investigations program was completed
         in March 2008 by the U.S. Government Printing Office OIG. No
         recommendations from this or any prior peer reviews are pending.

    •    The Board OIG did not conduct any peer reviews of other OIGs during
         this reporting period.

Copies of our peer review reports are available on our website at
http://www.federalreserve.gov/oig/peer_review_reports.htm.




Semiannual Report to Congress            46                             April 2011
Appendix 6
Cross-References to the IG Act
Indexed below are the reporting requirements prescribed by the IG Act with
the contents of this report.
      Section                                             Source                                  Page(s)

4(a)(2)           Review of legislation and regulations                                             36

5(a)(1)           Significant problems, abuses, and deficiencies                                   None

5(a)(2)           Recommendations with respect to significant problems                             None

5(a)(3)           Significant recommendations described in previous semiannual reports on which    None
                  corrective action has not been completed

5(a)(4)           Matters referred to prosecutorial authorities                                     34

5(a)(5);6(b)(2)   Summary of instances where information was refused                               None

5(a)(6)           List of audit, inspection, and evaluation reports                                 45

5(a)(7)           Summary of particularly significant reports                                      None

5(a)(8)           Statistical table of questioned costs                                             41

5(a)(9)           Statistical table of recommendations that funds be put to better use              42

5(a)(10)          Summary of audit, inspection, and evaluation reports issued before the           None
                  commencement of the reporting period for which no management decision has
                  been made

5(a)(11)          Significant revised management decisions made during the reporting period        None

5(a)(12)          Significant management decisions with which the Inspector General is in          None
                  disagreement

5(a)(14), (15),   Peer review summary                                                               46
 and (16)




Semiannual Report to Congress                               47                                    April 2011
Table of Acronyms and Abbreviations
 AMLF                Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity
                     Facility

 Board               Board of Governors of the Federal Reserve System

 BS&R                Division of Banking Supervision and Regulation

 Bureau              Bureau of Consumer Financial Protection

 C&A                 Certification and Accreditation

 CDO                 Collateralized Debt Obligation

 CEO                 Chief Executive Officer

 CIGFO               Council of Inspectors General on Financial Oversight

 CIGIE               Council of the Inspectors General on Integrity and Efficiency

 CIO                 Chief Information Officer

 CLD                 Construction, Land, and Land Development

 CPFF                Commercial Paper Funding Facility

 CPP                 Capital Purchase Program

 CRE                 Commercial Real Estate

 DIF                 Deposit Insurance Fund

 Dodd-Frank Act      Dodd-Frank Wall Street Reform and Consumer Protection Act

 FBI                 Federal Bureau of Investigation

 FDI Act             Federal Deposit Insurance Act

 FDIC                Federal Deposit Insurance Corporation

 FFIEC               Federal Financial Institutions Examination Council

 FHFA                Federal Housing Finance Agency

 First Community     First Community Bank

 FISMA               Federal Information Security Management Act of 2002

 FRB Boston          Federal Reserve Bank of Boston

 FRB Chicago         Federal Reserve Bank of Chicago

 FRBNY               Federal Reserve Bank of New York




Semiannual Report to Congress                    49                                  April 2011
Table of Acronyms and Abbreviations
 FRB Richmond        Federal Reserve Bank of Richmond

 FSOC                Financial Stability Oversight Council

 GSE                 Government Sponsored Enterprise

 GSS                 General Support System

 HUD                 Department of Housing and Urban Development

 IBB                 Independent Bankers’ Bank

 IESub               Internet Electronic Submission System

 IG                  Inspector General

 IG Act              Inspector General Act of 1978, as amended

 ISO                 Information Security Officer

 IT                  Information Technology

 Legacy              Legacy Bank

 Midwest             Midwest Bank and Trust Company

 MMIFF               Money Market Investor Funding Facility

 NCUA                National Credit Union Administration

 NIST                National Institute of Standards and Technology

 NRAS                National Remote Access Services

 OCC                 Office of the Comptroller of the Currency

 OIG                 Office of Inspector General

 OMB                 Office of Management and Budget

 OTS                 Office of Thrift Supervision

 PCA                 Prompt Corrective Action

 PCAOB               Public Company Accounting Oversight Board

 PDCF                Primary Dealer Credit Facility

 Pierce              Pierce Commercial Bank

 Pubweb              Public Website

 SEC                 Securities and Exchange Commission



Semiannual Report to Congress                   50                    April 2011
Table of Acronyms and Abbreviations
 S&S                 Safety and Soundness

 SP                  Special Publication

 TALF                Term Asset-Backed Securities Loan Facility

 TARP                Troubled Asset Relief Program

 Treasury            U.S. Department of the Treasury

 TSLF                Term Securities Lending Facility

 TSP                 Transportation Subsidy Program




Semiannual Report to Congress                 51                  April 2011
           Inspector General Hotline
                1-202-452-6400
                1-800-827-3340

   Report: Fraud, Waste, or Mismanagement
        Caller may remain anonymous

             You may also write to:
           Office of Inspector General
                    HOTLINE
Board of Governors of the Federal Reserve System
    20th Street and Constitution Avenue, NW
                      MS-300
             Washington, DC 20551

         or visit our hotline web page at:
http://www.federalreserve.gov/oig/oig_hotline.htm
Spine   Center




                   Office of Inspector General
                 Semiannual Report to Congress
                    October 1, 2010 – March 31, 2011




                 Board of Governors of the Federal Reserve System




Spine
